No. 20-AIN THE

fpuprente Court of the Ilutteb 6tateo
HUNTER FUSSELL, an individual,
Applicant,
v.
STATE OF LOUISIANA,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(b), I certify that I am counsel of
record for Applicant Hunter Fussell in the above-captioned matter. I further
certify that on February 28, 2020, at the time of hand delivery to this Court, I
served the foregoing Application for an. Extension of Time to File a Petition for a
Writ of Certiorari to the Louisiana Supreme Court, required by Rule 29.3, on
counsel for the respondent, by depositing a copy of the same, first class postage
prepaid, in the United States mails, addressed to:
Matthew Caplan
Assistant District Attorney
22nd Judicial District
701 N. Columbia Street
Covington, Louisiana 70433
mcaplan@22da.com
I further certify that I have transmitted an electronic version of the Application to
Mr. Matthew Caplan. As a result, I state according to Rule 29.5 that all parties
required to be served have been served.

February 28, 2020.

Adam Pierson
DLA Piper LLP (US)
Counsel of Record
Application for Admission Pending
1900 N. Pearl Street
Suite 2200
Dallas, Texas 75201
(214) 743-4512
adam.pierson@dlapiper.com
Counsel for Applicant

2

